U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

November 16, 2020

The Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Huntress. v. United States.
S. Ct. No. 20-426

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 30,
2020. The government’s response is now due, after one extension, on December 2, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including December 9, 2020, within which to file the government’s response.
This extension is necessary because the attorneys with principal responsibility for final
preparation of the government’s response have been heavily engaged with the press of other
matters before the Court.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

NOEL J. FRANCISCO
Solicitor General

cc:

See Attached Service List

20-0426
HUNTRESS, WILLIAM L,, ET AL.
USA

JOHN J. BURSCH
BURSCH LAW PLLC
9339 CHERRY VALLEY AVENUE SE
#78
CALEDONIA, MI 49316
616-450-4235
JBURSCH@BURSCHLAW.COM
THOMAS J. WARD
NATIONAL ASSOCIATION OF HOME
BUILDERS
1201 15TH STREET, N.W.
WASHINGTON, DC 20005
202-266-8161
TWARD@NAHB.ORG

